Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



  MEDICARE CONTRACTORS’
PAYMENTS MADE TO PROVIDERS
  CURRENTLY ASSIGNED TO
JURISDICTION 4 FOR FULL VIALS
 OF HERCEPTIN WERE OFTEN
         INCORRECT

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2012
                                                      A-06-12-00001
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY
BACKGROUND

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot review
found that the Medicare contractor’s payments for full vials of Herceptin were often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

In August 2007, CMS announced that it had awarded to TrailBlazer Health Enterprises, LLC
(TrailBlazer), the Medicare administrative contractor (MAC) contract for Jurisdiction 4, which
includes Colorado, New Mexico, Oklahoma, and Texas.

Historically, Wisconsin Physicians Service Insurance Corporation (WPS) processed a workload
that included providers who fell under the geographic jurisdiction of all 15 MACs (WPS Legacy
workload). In October 2010, CMS transferred certain providers in the WPS Legacy workload
from WPS to TrailBlazer. The transferred providers included providers located in Jurisdiction 4,
as well as Qualified Chain Providers with home offices in Jurisdiction 4.

To process providers’ claims for outpatient services, Medicare contractors use the Fiscal
Intermediary Standard System and CMS’s Common Working File (CWF). The CWF can detect
certain improper payments during prepayment validation.

During our audit period (January 1, 2008, through December 31, 2010), TrailBlazer and WPS
(contractors) processed 9,136 line items for Herceptin totaling approximately $18.2 million. Of
these 9,136 line items, 1,701 totaling approximately $4.7 million had 44, 88, 132, or 176 units of
service that represented billings equivalent to entire multiuse vials. In this audit, we did not
review entire claims; rather, we reviewed the specific line items within the claims that met these
criteria.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractors made to
providers currently assigned to Jurisdiction 4 for full vials of Herceptin were correct.



                                                i
SUMMARY OF FINDINGS

Most payments that the Medicare contractors made to providers currently assigned to
Jurisdiction 4 for full vials of Herceptin were incorrect. Specifically, of the 1,701 selected line
items, 1,349 (79 percent) were incorrect and included overpayments totaling $1,777,877, or more
than one-third of total dollars reviewed. The providers had not identified or refunded these
overpayments by the beginning of our audit. The providers associated with six of the line items
refunded overpayments totaling $6,819 before our fieldwork. The remaining 346 line items were
correct.

For the 1,349 incorrect line items that had not been refunded, providers:

   •   reported incorrect units of service on 1,328 line items with unit counts that represented
       full multiuse vials, resulting in overpayments totaling $1,718,904, and

   •   did not provide supporting documentation for 21 line items, resulting in overpayments
       totaling $58,973.

Providers attributed the incorrect payments to clerical errors, chargemaster errors, or
inadvertently billing for drug waste because they did not identify the drug as a multiuse-vial
drug. (A provider’s chargemaster contains data on every chargeable item or procedure that the
provider offers, including a factor that converts a drug’s dosage to the number of units to bill and
whether to charge for waste.) The contractors made these incorrect payments because neither the
Fiscal Intermediary Standard System nor the CWF had sufficient edits in place during our audit
period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover the $1,777,877 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer stated that it had processed all 1,349 claim
lines requiring adjustment and recovered the $1,777,877 owed to the Medicare program. Also,
TrailBlazer stated that it did not have sufficient time to create, test, and implement edits because
of the transfer of the Jurisdiction 4 MAC Part A workload to Novitas Solutions, Inc., and that it
would forward this report to Novitas. Finally, TrailBlazer said that it provides education
materials related to drugs and biologicals on its Web site. TrailBlazer’s comments are included
in their entirety as the Appendix.


                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Drugs ............................................................................................................. 1
        Herceptin ......................................................................................................................... 2
        Claims Processing Contractors ....................................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ....................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Unsupported Services ..................................................................................................... 5

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 5

      RECOMMENDATIONS ...................................................................................................... 6

      TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS ..................................... 6

APPENDIX

      TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot
review 2 found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. 4 Multiuse vials are not subject to payment for discarded amounts of the drug.

1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1
Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of
440 milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

Claims Processing Contractors

In August 2007, CMS announced that it had awarded to TrailBlazer Health Enterprises, LLC
(TrailBlazer), the MAC contract for Jurisdiction 4, which includes Colorado, New Mexico,
Oklahoma, and Texas. 5

Historically, Wisconsin Physicians Service Insurance Corporation (WPS) processed a workload
that included providers who fell under the geographic jurisdiction of all 15 MACs (WPS Legacy
workload). In October 2010, CMS transferred certain providers in the WPS Legacy workload
from WPS to TrailBlazer. 6 Accordingly, we have addressed our findings and recommendations
to TrailBlazer for review and comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments that the Medicare contractors made to
providers currently assigned to Jurisdiction 4 for full vials of Herceptin were correct.

Scope

During our audit period (January 2008 through December 2010), the contractors processed 9,136
outpatient Part B service line items of Herceptin totaling approximately $18.2 million. Of these


5
  TrailBlazer also processed Herceptin claims for three providers in Louisiana. These providers are Qualified Chain
Providers, a designation for providers located over a large geographic area that belong to multiple MAC
jurisdictions. A Qualified Chain Provider has the option to move all of its providers, regardless of geographic
location, to the MAC that covers the State in which the Qualified Chain Provider’s home office is located.
6
 The transferred providers included providers located in Jurisdiction 4, as well as Qualified Chain Providers with
home offices in Jurisdiction 4.


                                                         2
9,136 line items, 1,701 7 items totaling approximately $4.7 million had 44, 88, 132, or 176 units
of service that represented billings equivalent to entire multiuse vials.

We limited our review of the contractors’ internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims.

We conducted our fieldwork from October 2011 through July 2012 and included contacting
TrailBlazer in Dallas, Texas, and the 75 providers in California, Colorado, Kentucky, Louisiana,
Maryland, New Mexico, North Carolina, Oklahoma, Tennessee, and Texas that received the
selected Medicare payments.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items in which
        payments were made for HCPCS code J9355 (Herceptin);

    •   identified 1,701 line items that the contractors paid to 75 providers;

    •   contacted the 75 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly; specifically, we reviewed documentation to support:

             o the medical condition of the beneficiary in determining the necessity of the
               medication,
             o a physician’s orders for medication,
             o that the medication was administered, and
             o the type of solution used to reconstitute the Herceptin (BWFI containing
               1.1 percent benzyl alcohol or sterile water);

    •   coordinated the calculation of overpayments with TrailBlazer; and

    •   discussed the results of our review with TrailBlazer on August 7, 2012.




7
 One of the 1,701 line items was included because it exceeded $10,000. While this did not represent a billing
equivalent to a full vial, this high-dollar item was included because it was likely to be incorrect.


                                                         3
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Most payments that the Medicare contractors made to providers currently assigned to
Jurisdiction 4 for full vials of Herceptin were incorrect. Of the 1,701 selected line items, 1,349
were incorrect and included overpayments totaling $1,777,877 that the providers had not
identified or refunded by the beginning of our audit. Providers refunded overpayments on six
line items totaling $6,819 before our fieldwork. The remaining 346 line items were correct.

For the 1,349 incorrect line items that had not been refunded, providers:

    •   reported incorrect units of service on 1,328 line items with unit counts that represented
        full multiuse vials, resulting in overpayments totaling $1,718,904, and

    •   did not provide supporting documentation for 21 line items, resulting in overpayments
        totaling $58,973.

Providers attributed the incorrect payments to clerical errors, chargemaster 8 errors, or
inadvertently billing for drug waste because they did not identify the drug as a multiuse-vial
drug. The contractors made these incorrect payments because neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place during our audit period to prevent or
detect the overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states that “… providers must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS


8
  A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers, including
a factor that converts a drug’s dosage to the number of units to bill and whether to charge for waste.


                                                         4
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 1,328 (78 percent) of the 1,701 line items
reviewed, resulting in overpayments totaling $1,718,904 (37 percent) of the $4,699,671 total
dollars reviewed. Providers billed Medicare for entire vials containing 440 milligrams of
Herceptin, rather than billing only for the amount actually administered.

For example, one provider administered 180 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 180 milligrams is 18. 9 This
error occurred on 59 separate occasions for 1 patient; as a result, the Medicare contractor paid
the provider $125,692 for this patient when it should have paid $51,299, an overpayment of
$74,393.

Unsupported Services

The providers associated with 21 line items did not provide adequate documentation to support
that a patient was seen or received treatment. The providers agreed to cancel the claims
associated with these line items or file adjusted claims and refund the combined $58,973 in
overpayments that they received.

CAUSES OF INCORRECT MEDICARE PAYMENTS

Providers attributed the incorrect payments to clerical errors, chargemaster errors, or
inadvertently billing for drug waste because they did not identify the drug as a multiuse-vial
drug. Contractors made these incorrect payments because neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place to prevent or detect the
overpayments. In effect, CMS relied on beneficiaries to review their Medicare Summary
Notice 10 and disclose any overpayments.



9
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.

10
  The Medicare contractor sends a Medicare Summary Notice— an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                          5
RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover the $1,777,877 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer stated that it had processed all 1,349 claim
lines requiring adjustment and recovered the $1,777,877 owed to the Medicare program. Also,
TrailBlazer stated that it did not have sufficient time to create, test, and implement edits because
of the transfer of the Jurisdiction 4 MAC Part A workload to Novitas Solutions, Inc., and that it
would forward this report to Novitas. Finally, TrailBlazer said that it provides education
materials related to drugs and biologicals on its Web site. TrailBlazer’s comments are included
in their entirety as the Appendix.




                                                  6
APPENDIX
                                                                                                                                      Page 1 of2


APPENDIX: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS 




                  CAIS                                                                                                       MEDICARE

 CfI'flEIfS fI>r MEDICARE & MEDICAID S£IIIIKES



      OClOber30, 20 12

      Patricia M. Wheeler 

      Regionallnspec\or Ge neral for A ud it Serv ices 

      Office of Inspector General
      Office of A ud it Services, Reg ion VI 

      1100 Commerce Street. Room 632 

      Dallas. TX 75242

      RC POl1 Numbe r: A-06- 12-00001

      Dear Ms. Wheeler:

      We received the October 2, 2012, draft report entitled "Medicare Contracto rs' Payments Made to
      Providers Curren tly Assigned to Juri sdiction 4 for Full Vials of Herceplin Were Often Incorrec t."
      In the draft rellOn, the OrG recommended that Tmil Blazer:

                Recover $ 1,777,877 in ident ifi ed ovc'1>ayments;

                Implement or update system edits that identify for review multiuse-vial dmgs that are
                billed with units of service equiva lent \0 the dosage of an entire vi al(s): and

                Usc the results of this audit in its provider edu cat ion acti viti es.

      Plcase consider the fonowing responses to these recommen dations for inclusio n in the final
      repo rt:

           Recovery of O ve rp aym ents: I'rior to the conclusion of this audit, TrailBlazer processed all
           1,349 claim lines requiri ng adj ustm en t and recovered the $ 1,777,877 due the Medi care
           program.

           Imple ment o r Uptlatc Sys tem Edits: Due 10 the transfer of the J4 ~·I AC Pa rt A worklolld to
           Novitas Solutions, Inc . (Novitas), on October 29, 2012, there is insuffi cient tim e to create,
           test and im plement edits as outl ined in the dmft audi t report. TrailBlazer wi ll forwa rd th is
           report to Novilas so that th ey elln ensure the desi red edits are implement ed in their system .

           Provide r Ed \l ca tion Acti vities : TrailB lazer provides a Drug and Biologicals Web Page Oil
           th e TrailBlazer Wcb site. This page serves as a centralized repository for educational
           re ferences for drugs and biologicals.
           hup:flwww.trailblaurhealt h.comfSpecia[ty%20ServicesfDrugs%20and%20Riologicalsfdefau
           It.aspx? DomainlD I




                                       TrailBlazer I-Iealth Enterprises, LLC
                                         Exo""",,* c.ntot III . eno l SJ   ~, ,,wo Y .


                                                 A Medic.r. Adminialr.tiv. C",,"'. c'or
                                                                                         Do l.. .. H   7 ~ 1~3-1213

                                                                                                                      ISO'
                                                                                                                      , ,,to,, ,, t
                                                                                                     Page 2 of2




Patricia !v!. Whee ler
October 30, 20 12
Page 2 of2


    11le followin g job a ids to ass ist providers with proper clai.m submiss ion lor dmgs and
    bio logicals are avai lable 0 11 the TrailBlazer Web site.
         Dmg Wastage
         hnp ://www.trailb lazeriteal th.comfPublications/Job%20AidlDrug%20Wastage.pdf
    • 	 Drug and Biologica ls Coding Tips
         hnp://www.trailb lazerh calth.comlPublications/Job%20AidlDrugsand BiologicalsCod in gT
         ips.pd f

    An article titl ed " Billing for Dnlg Wastage" was posted 10 the TrailBl azer Web site on
    Febmary 27, 2012.
    http://www.trai lbl azerhealth.com/ToolsfNot ices. aspx?ID=14256

    111e arti cle be low hi ghli ghting these O IG findin gs posted to the TrailBlazer Web site on
    October 12, 2012. and was di stributed via listserv for future exposure.
    http://www.trai lbl azcrhcalth.com/ToolslNoti ces. aspx '!ID= 15100


If you have any qllcsti onfoi regarding our response, pl ease contact me.

Sincerely,

lsi Melissa Halstead Rhoades

Melissa Halstead Rhoades
Area Director & lvledicare CFO

cc: 	   Susan Oken, J4 MAC Contracting Oflicer's Representati ve, GMS
        Gil R. Glo ver. Pres ident & Chief Operating Officer, TrailBlazer
        SC011 J. Manning, Viee President, Financial Management Operation.s. TrailBlazer
        Kevin Bidwell, Vice Pres ident & Compl iance Offi cer, TrailBlazer
